March 20, 2007

JAMES A. NEMEC
PLANT MANAGER, JACKSONVILLE, FLORIDA
 PROCESSING AND DISTRIBUTION CENTER

SUBJECT:          Audit Report – Jacksonville Processing and Distribution Center Flat
                  Processing Operations (Report Number NO-AR-07-002)

This report presents the results of our audit of flat1 processing operations at the
Jacksonville, Florida, Processing and Distribution Center (Jacksonville P&DC)
(Project Number 06XG027NO000). In April 2006, while the U.S. Postal Service Office
of Inspector General (OIG) was addressing a Board of Governors request to review the
External First-Class (EXFC) Measurement System at the Jacksonville P&DC,2 we noted
potential inefficiencies in flat mail processing operations. So we conducted this audit
with the objective of assessing the efficiency of off-site flat mail processing operations,
and in partnership with the Plant Manager, Jacksonville P&DC.

The audit confirmed that the Postal Service may have experienced processing delays
and incurred unnecessary operational cost by processing flats at the Tradeport Annex
(Annex). However, during our audit, the Postal Service consolidated flat and letter mail
operations at the Jacksonville P&DC. As a result, the Postal Service could realize a net
cost avoidance of approximately $3.1 million in facility and transportation cost by closing
the Annex.

Management agreed with our finding, recommendation, and cost avoidance and has
taken action to address the issues in this report.

                                                  Background

The U.S. Postal Service has over 269 mail processing facilities. A P&DC is a central
mail facility that processes and dispatches part or all of incoming3 and outgoing4 mail for


1
  Flat-size mail refers to mailpieces that exceed the dimensions for letter-size mail (11 1/2 inches long, 6 1/8 inches
high, and 1/4 of an inch thick).
2
  The EXFC issue was addressed in a June 28, 2006, memorandum to the Secretary to the Board of Governors.
3
  Incoming mail is mail received by a postal facility, most commonly for distribution and delivery within the delivery
area of the receiving facility.
4
  Outgoing mail is mail sorted within a mail processing facility that is dispatched to another facility for additional
processing and delivery.
Jacksonville Processing and Distribution Center                                 NO-AR-07-002
 Flat Processing Operations


a designated service area. The Jacksonville P&DC, in the North Florida performance
cluster, primarily processes letter mail. The Jacksonville P&DC also operates an off-site
Annex, which handles all flat mail processing for the P&DC. The Postal Service has
leased the Annex since 1995.5 Annual lease costs for the Annex total $471,178 plus
$249,828 in utilities.

                               Objective, Scope, and Methodology
Our objective was to assess the efficiency of off-site flat mail processing operations at
the Jacksonville P&DC. We observed processing operations, interviewed Postal
Service officials and employees, reviewed prior Postal Service work in the facility,
identified costs of the operations, reviewed floor plans and equipment layouts, and
identified the impacts of the potential consolidation. We relied on data and
documentation provided by the Postal Service, and verified results with Postal Service
managers. Nothing came to our attention to suggest the data was unreliable.

We conducted this audit from April 2006 through March 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.

                                           Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit. The
Postal Service conducted a comprehensive service review of processing facilities
associated with the Jacksonville P&DC in January 2006. Their report identified specific
mail processing deficiencies and suggested actions to improve existing processes.

                                                      Results
The split between the Jacksonville P&DC and the Annex created inefficiencies in
processing the mail. The chart below shows the five steps needed to move and
process mail between the two facilities.




5
    The current lease for the Annex expires on July 31, 2010.




                                                            2
Jacksonville Processing and Distribution Center                                   NO-AR-07-002
 Flat Processing Operations


Chart 1




Processing flats at the Annex increased the handling and transportation requirements,
as shown in steps 2 and 4 above. For example, on April 5, 2006, we observed that mail
was transported eight times on Tour 3 from the Jacksonville P&DC to the Annex. As a
result of these trips, the Postal Service used an additional 4 hours to load and transport
mail between the two facilities.

Processing mail at the Jacksonville P&DC would be more efficient. The chart below
shows the process without steps 2 and 4, resulting in a reduction in overall processing
time.

Chart 2




Title 39, U.S.C., Part 1, Chapter 4, § 403(b)(1) states, “It shall be the responsibility of
the Postal Service to maintain an efficient system of collecting, sorting and delivery of



                                                  3
Jacksonville Processing and Distribution Center                              NO-AR-07-002
 Flat Processing Operations


the mail nationwide…” Also, the Report of the President’s Commission on the U.S.
Postal Service states, “Toward that end, the Commission envisions a comprehensive
postal network realignment . . . for consolidating and closing unnecessary processing
and other back-end postal facilities…”

Historically, the Annex was used because the Jacksonville P&DC did not have
adequate floor space for flat mail processing equipment. However, recent Postal
Service actions have opened up additional space at the P&DC.

    •   The Jacksonville P&DC removed the sack sorter because sack volumes
        throughout the mail processing network had decreased.

    •   During the audit, the Postal Service moved five Delivery Barcode Sorters to the
        Air Transfer Office at the Jacksonville airport.

These moves created sufficient space to house the flat mail processing equipment at
the P&DC.

As a result of processing flats at the Annex, the Postal Service may have experienced
processing delays and incurred unnecessary operational costs. Because of the
additional processing time, the Postal Service increased the potential that mail would be
delayed or scheduled trips between facilities would be missed. Moving flat mail
processing operations to the Jacksonville P&DC would correct these issues and would
also expand the operational window for processing flats.

During our audit, the Postal Service took a proactive approach to this issue and began
consolidating flat and letter mail operations at the Jacksonville P&DC. The newly
appointed plant manager worked cooperatively with the OIG and was instrumental in
the Postal Service’s efforts to consolidate operations. During the review, the Postal
Service completed this consolidation, but continued to use the Annex through the
holiday mailing season for additional equipment storage.

Since the Postal Service moved the flat mail processing operation to the Jacksonville
P&DC in October 2006 we are not making a recommendation on this issue. However,
the Postal Service could also realize a net cost avoidance of approximately $3.1 million
in facility and transportation costs by closing the Annex. Appendix A shows the
estimated cost avoidance from moving flat processing operations to the Jacksonville
P&DC and closing the Annex. This represents $3,112,457 in funds put to better use
and will be reported as such in our Semiannual Report to Congress.




                                                  4
Jacksonville Processing and Distribution Center                               NO-AR-07-002
 Flat Processing Operations


                                       Recommendation
We recommend the Plant Manager, Jacksonville, Florida, Processing and Distribution
Center:

      1. Close the Tradeport Annex following the holiday mailing season. This action will
         result in a cost avoidance of approximately $3.1 million in facility and
         transportation costs over 4 years.

                                 Management’s Comments
Management agreed with our finding, recommendation, and monetary impact as funds
put to better use by cost avoidance. Management stated they have not used the Annex
for processing since the first week in January 2007. Management indicated that since
the Annex’s lease does not expire until 2010, they plan to use it for Christmas
processing. Management’s comments, in their entirety, are included in Appendix B.

                      Evaluation of Management’s Comments
Management’s comments are responsive to our recommendation, and their actions
should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert J. Batta, Director,
Network Processing, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:      Patrick R. Donahoe
         Anthony M. Pajunas
         Terry J. Wilson
         Harold L. Swinton
         Deborah A. Kendall




                                                  5
Jacksonville Processing and Distribution Center                                   NO-AR-07-002
 Flat Processing Operations



                                            APPENDIX A

    COST AVOIDANCE AT THE JACKSONVILLE PROCESSING AND
                   DISTRIBUTION CENTER

                                                                         Fiscal Year
                                                          0            1             2             3
                                                        2007         2008          2009          2010

 Utility savings, Tradeport Annex                      $249,828    $254,325     $258,903     $263,563
 Offset to utility savings, partial first year        ($104,095)
 Increase in utilities, Air Transfer Office            ($36,000)   ($36,648)    ($37,308)    ($37,979)

 Net transportation savings                           $898,548     $912,026     $925,707     $939,592

 Cost of moving four AFSM 100s                        ($426,000)
 Cost of modifying building interior                  ($378,242)
 Maintenance costs to move equipment                  ($200,000)

 Total cost savings                                    $4,039      $1,129,703   $1,147,302   $1,165,176

 Discounted at 5.25 percent annually                   $4,039      $1,073,352   $1,035,699   $999,367

 Total discounted cost savings                        $3,112,457




                                                  6
Jacksonville Processing and Distribution Center        NO-AR-07-002
 Flat Processing Operations


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                  7
